              Office of
              INSPECTOR GENERAL
              U.S. Department of the Interior

      INSPECTION REPORT




          Museum Collections:
   Preservation and Protection Issues
   with Collections Maintained by the
        Fish and Wildlife Service

Report No. C-IS-FWS-0007-2010                   January 2010
                      United States Department of the Interior
                                     OFFICE OF INSPECTOR GENERAL
                                     CENTRAL REGION - DENVER FIELD OFFICE
                                           134 Union Blvd., Suite 510
                                              Denver CO 80228

                                                                                 January 29, 2010

To:        Sam D. Hamilton
           Director, U.S. Fish and Wildlife Service

From:      Loralee Bennett ii~ B~
           Deputy Regional Audit Manager

Subject:   Inspection Report - Museum Collections: Preservation and Protection Issues with
           Collections Maintained by the Fish and Wildlife Service (C-IS-FWS-0007-2010)

        The long-term preservation and future availability of artwork, artifacts, and other items
maintained in museum collections operated by the Fish and Wildlife Service (FWS) requires
FWS to minimize those factors that tend to shorten an object's life. As a result, we evaluated
FWS museum collections to determine whether FWS was adequately preserving and protecting
its artwork, artifacts, and other museum objects.



(I           Background
                                             II
       Bureaus within the Department ofthe Interior manage museum collections that are
estimated to include over 146 million pieces of artwork, artifacts, and other museum objects.
Museum property is acquired to be preserved, studied, or interpreted for public benefit and can
include objects representing archeology, art, history, botany, zoology, paleontology, or geology.

       Because museum property is intended for long-term preservation, its management
requirements are necessarily different from the requirements of property that can be easily
replaced. Therefore, the Department's Museum Property Handbook defines seven preservation
categories for use in protecting museum property: storage, environment, security, fire protection,
housekeeping, planning, and staffing.

        On December 16,2009 we issued a report titled "Department of the Interior Museum
Collections" (Report No. C-IN-MOA-001O-2008). The review found that the Department was a
poor steward of these museum collections and could take additional steps to improve
preservation and protection of museum collections. To assess the adequacy of the Department's
preservation practices, we developed a 44 question checklist assessing the seven preservation
areas identified in the Department's guidance. Using the checklist, we visited four FWS sites and

                                                  • 1• •
completed the checklist based on both our observations and interviews with museum personnel.
We also received self-reported checklists from an additional three FWS sites. This report
provides you with specific results for the FWS sites.


      Results of Inspection

        Overall, we found widespread issues                                   Percentage of Checklist
                                                 Site
with the preservation practices. While some                                   Items with Deficiencies
sites had only a small number of                 Mason Neck NWR                        11%
deficiencies, others had numerous                Parker River NWR                      36%
deficiencies in multiple categories. See         Patuxent Research Refuge              27%
Appendix. For example, one site did not          Rocky Mountain Arsenal                25%
perform more than half of the preservation       DC Booth Historic Site                18%
controls we inspected. Overall, all seven of
                                                 Kenai National WR                     50%
the FWS sites (100 percent) had one or more
                                                 Portland Regional Office              59%
deficiencies. Specifically:

       Insulation was not adequate to help maintain stable environmental conditions. For
       example, at the Kenai National Wildlife Refuge in Soldotna, AK we observed that all
       artifacts, including such items as a rifle barrel, razor leather, pocket watches, and brass
       rifle cases were stored in an outside storage shed with no environmental controls. Gas
       cans, lawn mowers, and other maintenance equipment were stored in the same shed. At
       the Rocky Mountain Arsenal National Wildlife
       Refuge in Commerce City, CO we observed that
       museum objects were stored in a temporary building
       that contained no climate control devices. Artifacts
       such as old shoes, breakable lights, and a wooden
       time card rack were stored directly on the floor
       without adequate padding or palettes and were
       intermingled in large storage boxes without adequate
       protection. Intermingling these items in one box
       increases the risk of potential damage since fragile
       items were not properly wrapped to protect the items from other, heavier items, in the
       same box.

       Museum property was not safeguarded from
       overcrowding, breakage, or cross contamination.
       For example, at the Patuxent Research Refuge in
       Laurel, MD we observed that historic maps stored at
       this location were stacked on top of each other
       without protective barriers. Maps were also rolled up
       and appeared to have damage to the ends of the
       maps.


                                                 2
       Museum property was not protected against temperature and humidity changes. At
       the Portland Regional Office in Portland, OR we observed that artifacts were stored near
       improperly sealed windows. The only humidity
       control for the location consisted of a shower
       curtain over the fireplace opening. We
       observed a wooden chair, a historic
       photograph, and papers documenting the
       history of the refuge improperly stored behind
       this curtain. The site had a humidity reader,
       however, we were informed that the reader
       could be off by as much as 10 percent.

       Pest control devices were not always used. A
       historic farm onion sorter was stored in a barn
       with broken and missing windows. As a result, owls had unrestricted access to the barn
       and droppings covered the artifact and floor.

       Museum property was not safeguarded against fire. There was a heightened risk of
       fire at the Kenai National Wildlife Refuge in Soldotna, AK because some of the museum
       objects were stored along with highly flammable liquids. This site also did not have a fire
       detection or suppression system.

        Because the preservation of the collections at many FWS sites has been neglected,
countless artwork, artifacts, and other museum objects are in jeopardy. Identified deficiencies
could jeopardize museum objects and result in irreparable harm, irreversible damage, or loss of
the item.


        Recommendations

       We recommend that the Director, Fish and Wildlife Service, ensure that a plan is
developed and implemented to:

       Recommendation 1. Correct and/or mitigate, to the greatest extent possible, all
       identified deficiencies at the seven sites identified in this report.

       Recommendation 2. Inspect all remaining FWS sites that house museum collections
       and correct and/or mitigate, to the greatest extent possible, all identified deficiencies.

        We would appreciate being kept apprised of the actions planned, or taken, on our
recommendations as we will track the status of their implementation. We ask that you inform us
of the planned course of action of the recommendations within 30 days.

       If you have any comments or questions regarding this advisory, please call me at
(303) 236-9243.

                                                 3
                                                                                                                                                Appendix


                                                                      Observed                                                        Self-Reported




                                                                    Parker River NWR

                                                                                       Patuxent Research
                                               Mason Neck NWR




                                                                                                                            DC Booth Historic
                                                                                                           Rocky Mountain




                                                                                                                                                                 Regional Office
                                                                                                                                                Kenai National
                                                                                                            Arsenal NWR




                                                                                                                                                                    Portland
       No Deficiencies Noted




                                                                                            Refuge




                                                                                                                                 NFH


                                                                                                                                                    WR
   X   Deficiencies Noted

   % Percentage of Deficiencies Noted


STORAGE                                        0%                   8%                 15%                 38%              23%                 62%              54%
1. Safe from flooding.                                                                                       X                  X                  X                 X
2. Appropriately insulated.                                                                                  X                                     X                 X
3. Appropriate space.                                                                       X                X                                     X                 X
4. Sufficient space.                                                                        X                                   X                  X                 X
5. Adequate storage cabinets.
6. Cabinets not over-stacked.
7. Open shelving safe.                                                                                                                             X
8. Stacked items protected.                                                                                  X                                     X
9. Earthquake safe.                                                                                                                                X                 X
10. No overcrowding.                                                                                         X                                     X                 X
11. Secure exhibit cases.                                           X                                                           X
12. Appropriate exhibit cases.                                                                                                                                       X
13. Properly framed artwork.
ENVIRONMENT                                    0%                   78%                56%                 44%              11%                 44%              67%
14. Temperature & humidity monitored.                               X                       X                X                                     X                 X
15. Observations recorded.                                          X                       X                X                                                       X
16. Observations permanently saved.                                 X                                        X                                                       X
17. Observations analyzed.                                          X                                        X                  X                                    X
18. Hygrothermographs maintained.
19. Outside lights appropriately controlled.                        X                       X                                                      X                 X
20. Artwork away from vents.
21. Pest control devices used.                                      X                       X                                                      X
22. Type of pests analyzed.                                         X                       X                                                      X                 X
SECURITY                                       13%                  25%                  0%                13%              13%                 38%              100%
23. Appropriate staff have keys.                                    X                                                           X                  X                 X
24. Keys are controlled.                                                                                                                                             X
25. Visitors escorted.                                                                                                                             X                 X
26. Visitors sign in.                                                                                                                              X                 X
27. Closing procedures documented.                                  X                                                                                                X
28. Alarm systems maintained.                  X                                                             X                                                       X
29. Sensitive items stored separately.                                                                                                                               X
30. Irreplaceable items guarded.                                                                                                                                     X



                                                                4
                                                                                                                                            Appendix


                                                                  Observed                                                        Self-Reported




                                                                Parker River NWR

                                                                                   Patuxent Research
                                           Mason Neck NWR




                                                                                                                        DC Booth Historic
                                                                                                       Rocky Mountain




                                                                                                                                                             Regional Office
                                                                                                                                            Kenai National
                                                                                                        Arsenal NWR




                                                                                                                                                                Portland
      No Deficiencies Noted




                                                                                        Refuge




                                                                                                                             NFH


                                                                                                                                                WR
  X   Deficiencies Noted

  % Percentage of Deficiencies Noted

FIRE PROTECTION                            20%                  20%                20%                 20%                0%                 0%               0%
31. Fire detection and suppression.        X                                            X                X
32. Fire extinguishers.
33. Staff trained on fire extinguishers.                        X
34. Fire suppression systems clear.
35. No flammable liquids.
HOUSEKEEPING                               25%                  75%                  0%                0%                 0%                75%              75%
36. Housekeeping performed.                                                                                                                                      X
37. Written rules on housekeeping.         X                    X                                                                              X                 X
38. Housekeepers trained.                                       X                                                                              X
39. Smoking & eating prohibited.                                X                                                                              X                 X
PLANNING                                   67%                  67%                100%                0%               100%                67%              67%
40. Written plan.                                               X                       X                                   X                  X
41. Assessment of property.                X                                            X                                   X                                    X
42. Plan to evacuate property.             X                    X                       X                                   X                  X                 X
STAFFING                                   0%                   0%                 50%                 0%                0%                 100%              0%
43. Staff assigned responsibilities.                                                    X                                                      X
44. Staff have been trained.                                                                                                                   X
ADDITIONAL DOCUMENTS
1. Checklist Report                        X                    X                       X                X                  X                  X                 X
2. Basic Security Protection Report        X                    X                       X                                   X                  X                 X
3. Fire Protection Plan                                                                 X                                   X                                    X
4. Integrated Pest Management Plan         X                    X                                                                              X                 X
5. Environmental Control Plan              X                    X                       X                X                                     X                 X
6. Annual Emergency Management Plan                                                     X                                                                        X
7. Current Collection Storage Plan         X                    X                       X                                                      X                 X
8. Written Handling Procedures             X                    X                       X                                                      X                 X




                                                            5
Report Fraud, Waste, Abuse
   And Mismanagement
           Fraud, waste, and abuse in
       government concerns everyone:
       Office of Inspector General staff,
      Departmental employees, and the
      general public. We actively solicit
       allegations of any inefficient and
     wasteful practices, fraud, and abuse
   related to Departmental or Insular area
  programs and operations. You can report
       allegations to us in several ways.




   By Mail:    U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 4428 MIB
               1849 C Street, NW
               Washington, D.C. 20240

   By Phone:   24-Hour Toll Free 800-424-5081
               Washington Metro 703-487-5435

   By Fax:     703-487-5402

   By          www.doioig.gov/hotline
   Internet:
